        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Special Report
Inquiry into the Procurement of Law
Firm Services and Management of
Law Firm-Disclosed Organizational
Conflicts of Interest by the
Department of Energy's Loan
Programs Office




OAS-RA-12-14                     August 2012
                                  Department of Energy
                                     Washington, DC 20585

                                         August 28, 2012

MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "Inquiry into the Procurement of
                         Law Firm Services and Management of Law Firm-Disclosed
                         Organizational Conflicts of Interest by the Department of Energy's
                         Loan Programs Office"

BACKGROUND

The Department of Energy's Loan Programs Office was created to accelerate the domestic
commercial deployment of innovative and advanced clean energy technologies by guaranteeing
and providing loans to eligible recipients. The Loan Programs Office currently oversees over
$34 billion in loans to about 40 projects. From the outset of the loan programs, the Department
concluded that it needed independent legal advisory services from private law firms to assist in
its review of loan guarantee applications. In response to solicitations, the Department entered
into Retainer Agreements with 10 firms. The Retainer Agreements and Federal regulations
require law firms to disclose any actual or potential conflicts of interest. Recognizing that such
conflicts were likely under the circumstances, the Department required law firms to complete a
mitigation plan describing how actual or potential conflicts of interest would be avoided or
mitigated. It also reserved the right to grant waivers when appropriate.

In prior audits, weaknesses were identified in the administration of loan programs. Our most
recent review, The Department of Energy's Loan Guarantee Program for Clean Energy
Technologies (DOE/IG-0849, March 2011), found that the Loan Programs Office had not
developed and implemented a comprehensive records management system or documented how it
had resolved or mitigated relevant risks. The U.S. Government Accountability Office's (GAO)
report, DOE LOAN GUARANTEES: Further Actions are Needed to Improve Tracking and
Review of Applications (GAO-12-157, March 2012), also found that the Loan Programs Office
did not have consolidated data on application status and that review steps were omitted or poorly
documented.

We received anonymous complaints alleging various improprieties in the Loan Programs Office
related to the procurement of legal services and the management of law firm-disclosed conflicts
of interest in the Innovative Technology Loan Guarantee Program (Program). In response, we
initiated a special inquiry to review the circumstances surrounding the allegations.

RESULTS OF INQUIRY

Our inquiry did not substantiate the specific allegations outlined in the complaint. Absent
additional information, we plan no further action regarding the original allegations.
We did, however, identify opportunities to improve transparency over the Program's
management of organizational conflict of interest waiver requests. Specifically, we noted that
the Program had not deployed a tracking system for managing law firm waiver requests and had
not documented, in an organized system of records, the rationale for denying or approving
waiver requests. The issues observed parallel the findings in prior Loan Guarantee Program
reviews.

Review of Allegations

In response to the various complaints, we conducted a review of the Program's management of
legal services procurement activities and potential conflicts of interest. To that end, we
interviewed Program officials to determine the processes in place for law firm selection. We
also reviewed the requirements set forth by the Retainer Agreements between the law firms and
the Department regarding issues that could give rise to a conflict of interest. Additionally, we
requested and reviewed 70 organizational conflict of interest waiver requests that had been
approved. Finally, we requested all formal and informal communication, and documentation
associated with a selected sample of 11 waiver requests submitted to the Program for approval.

Our examination revealed that the Program had established procedures for identifying and
disclosing conflicts of interest. To mitigate the risk of such conflicts, the Program incorporated
requirements in the solicitation and the Retainer Agreements between the law firms and the
Department requiring firms to fully disclose any actual or potential conflicts of interest. If a firm
identifies a potential conflict of interest it may submit, in accordance with Program procedure, a
request to waive the conflict. The Program, in turn, can either approve or deny the request. The
Program requires a request for a waiver be submitted anytime a law firm determines that its
activities and relationships may hinder impartiality or objectivity in performing work for the
Department. For example, a conflict could occur if a firm represented a client interested in
obtaining a Department loan guarantee and, at the same time, wished to provide counsel to the
Department regarding the selection of guarantee recipients.

As noted, we did not substantiate the specific allegations that were the predicate for this inquiry;
however, we did identify opportunities for the Program to improve the management of conflict
of interest waivers.

                                         Tracking System

We found that the Program had not deployed a tracking system for the receipt, review and
denial/approval of law firm waiver requests. Although the Program developed a standardized
waiver request form, Program officials stated that the tracking of waivers was done only through
emails. They also asserted that they believed their process complied with applicable
procurement requirements and the Retainer Agreements. In our view, a waiver tracking system
would provide information the Program would need to ensure consistency during the review,
approval or denial of waiver requests involving multiple law firms, their numerous clients and
their commitments to represent the Department. For example, Program officials stated that there
had been numerous denials of waiver requests, both formally and informally. However, based
on our review, denials had not been tracked, and information supporting the rationale for denial
was not readily available for examination when reviewing the validity of subsequent requests.
                                                  2
The Program explained that this occurred in some cases because, after informal consultations
with the Department, the law firm determined not to seek a waiver.

                          Documentation and Recordkeeping Concerns

Our inquiry also established that, in a number of cases, available records lacked sufficient
information to permit an independent reviewer to understand the reasons for granting waivers of
conflicts of interest. Prior to, or contemporaneous with, granting requested waivers, the
Department had not always memorialized key decision points, and therefore could not
demonstrate, through systematically organized records, that its justifications for granting waivers
for actual or potential conflicts of interest were appropriate. In response to our request for
information supporting the decision-making processes, the Program could only provide emails
that were retained on a Program official's computer. These emails were neither included in the
official agreement files nor added to an organized system of records. Additionally, the emails, in
a number of cases, lacked sufficient detail to render the rationale for granting the waiver
transparent, thus preventing an independent reviewer — based on a review of official records
alone — from objectively evaluating the basis or justification for such action.

During our review, Program officials told us that their files contained signed modifications of the
Retainer Agreements and approved organizational conflict of interest waivers. These same
officials expressed their belief that the documentation they retained was sufficient. Even though
they had not always documented information regarding the steps followed, Program officials
were generally able to describe their rationale for granting particular waivers. We noted,
however, that the official files contained the requested waivers and the actual Federal approval of
the waivers, but no other supporting information. Also, no information regarding waivers that
had been denied was maintained in official files.

The lack of supporting information limited the ability to carry out an objective examination of
the decision process leading to the granting of conflict of interest waivers. In particular, without
contemporaneously prepared documentation, management and/or reviewing officials are unable
to readily understand the basis for approving the waivers. One particular case we examined, in
our opinion, demonstrated the need to adequately document approval decisions. In this case,
Program officials approved waiver requests in which a law firm covered by an existing
mitigation plan proposed to provide general advice to private clients in connection with loan
guarantees. Program officials told us they had approved the waiver requests because the firm
explained that it was not representing clients on specific loan applications or projects. However,
supporting documentation provided by the requesting law firm did not completely explain the
types and extent of advice the law firm planned to provide to its clients. In another example,
Program officials had not documented specific amplifying information provided by the
requesting law firm in response to their requests.

The Standards for Internal Controls in the Federal Government published by GAO requires all
transactions and other significant events to be clearly documented and that such documentation
be readily available for examination. Additionally, all documentation and records are to be
properly managed and maintained. Permitting individual employees to retain records relating to
critical decision points on individual computer systems is inconsistent with these standards.
Such a practice raises significant retention concerns, including employee departure or turnover.
                                                 3
General Procedures

The lack of a tracking system and documentation supporting the reasons for approving waiver
requests in an organized system of records occurred, in large part, because the Program had not
established formal documentation procedures. Program officials stated that they believed the
agreement modifications complied with applicable procurement rules and the Retainer
Agreements, and served as the evidence of the waiver request and its approval. While the
Program had limited procedures for processing waiver requests, it had not established any
guidance on document retention and information required to support approvals or denials.

RECOMMENDATIONS

We recognize that the notion of sufficiency in terms of documentary evidence supporting
conflict of interest waiver decisions is subjective. However, given the taxpayer-provided funds
at risk in the Loan Guarantee Program, the sensitivity of the Program and its reliance on outside
law firm legal advice free from conflicts and impairments, we concluded that the Department
should ensure that contemporaneous records clearly demonstrate the support and rationale for
approving or denying conflict of interest waiver requests. Ultimately, greater transparency in the
decision-making process could be of special value in the event of a default, bankruptcy or similar
event.

To address the issues identified in our report, we recommend that the Acting Executive Director
of the Loan Programs Office direct officials to:

   1. Establish a formal tracking system to document the receipt, review and denial/approval of
      organizational conflict of interest waiver requests;

   2. Develop and implement, in coordination with the Department's Office of Management and
      Office of the General Counsel, formal procedures on documentation requirements in
      agreement files associated with law firms selected for legal services; and,

   3. Ensure that the measures outlined in Recommendations 1 and 2 lead to the development of
      an audit trail that adequately describes the factual basis, rationale, and thought process
      leading to the Department's approval of waivers for legal service organizational conflict of
      interest applications.

MANAGEMENT REACTION AND AUDITOR COMMENTS

The Loan Programs Office's management concurred with our recommendations and proposed
corrective actions. Management noted that the benefit of implementing the recommendations
will be to create a transparent audit trail that will facilitate third-party review of the basis for the
approval or denial of conflict of interest waiver requests. In response to our recommendations,
management stated that the Loan Programs Office is in the final stages of developing and
implementing a state of the art records management system as well as an integrated information
management system that will integrate the recommended tracking and document retention
systems to allow waiver requests to be followed from receipt to final disposition. Regarding
coordination on formal procedures for documentation, management stated that the Loan
                                                    4
Programs Office will seek input from the Department's Office of General Counsel and Office of
Management. Additionally, management stated that the implementation of the records
management and integrated information management systems will enable the Loan Programs
Office to produce an audit trail that adequately describes the factual basis, rationale and thought
process leading to the Department's approval of requests for waivers of potential conflicts of
interest in connection with the provision of legal services.

Management's proposed actions are responsive to the recommendations. Management's
comments are included in Attachment 2.

cc:    Deputy Secretary
       Associate Deputy Secretary
       Acting Executive Director, Loan Programs Office
       Chief of Staff




                                                 5
                                                                                  Attachment 1


                                   RELATED REPORTS


Office of Inspector General

   •   Audit Report on The Department of Energy's Loan Guarantee Program for Clean Energy
       Technologies (DOE/IG-0849, March 2011). The audit revealed that the Loan Guarantee
       Program could not always demonstrate, through systematically organized records, how it
       resolved or mitigated relevant risks prior to granting loan guarantees. Decision
       documents summarizing the process did not always describe the actions taken by officials
       to address, mitigate and/or resolve risks. We found that the loan origination files were
       not maintained in the Loan Guarantee Program's official electronic information
       repository, which according to Federal regulations is to contain key documentation to
       support actions as part of the loan guarantee process. Although the Loan Guarantee
       Program's website referenced requirements for loan documentation, the Loan Guarantee
       Program had not adopted a records management system that imposed structure,
       consistency and discipline in the development and retention of loan documentation.


U.S. Government Accountability Office

   •   Audit Report on DOE LOAN GUARANTEES: Further Actions Are Needed to Improve
       Tracking and Review of Applications (GAO-12-157, March 2012). The audit was
       initiated because of questions regarding inconsistent treatment of applications and the
       Department's review process. The U.S. Government Accountability Office (GAO) found
       that the Loan Guarantee Program had not maintained consolidated data, but had to
       assemble the information from various sources. The audit also revealed that the Loan
       Guarantee Program had not always adhered to its review process. In addition, GAO
       could not determine whether the Loan Guarantee Program had performed some
       established review steps because of poor documentation. GAO recommended that the
       Loan Programs Office: (1) Commit to a timetable to fully implement a consolidated
       system that enables the tracking of the status of applications and that measures overall
       program performance; (2) Ensure that the new records management system contains
       documents supporting past decisions, as well as those in the future; and, (3) Regularly
       update the Loan Guarantee Program's credit policies and procedures manual to reflect
       current program practices to help ensure consistent treatment for applications to the
       program.




                                              6
                      Attachment 2

MANAGEMENT COMMENTS




         7
    Attachment 2 (continued)




8
                                                                    IG Report No. OAS-RA-12-14

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's
        overall message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the
        issues discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should
        we have any questions about your comments.



Name                                             Date

Telephone                                Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
